U.S. Departmentof                                               The Inspector General               Office of Inspector General
                                                                                                    Washington, D.C. 20590
Transportation
Office of the Secretary
of Transportation




 January 18,2007


 The Honorable Patty Murray                                   The Honorable John W. Olver
 Chairman                                                     Chairman
 Subcommittee on Transportation,                              Subcommittee on Transportation,
 Housing and Urban Development, and                           Housing and Urban Development, and
 Related Agencies                                             Related Agencies
 Committee on Appropriations                                  Committee on Appropriations
 United States Senate                                         United States House of Representatives
 Washington, DC 205 10                                        Washington, DC 205 15

 The Honorable Christopher "Kit" Bond                         The Honorable Joe Knollenberg
 Ranking Member                                               Ranking Member
 Subcommittee on Transportation,                              Subcommittee on Transportation,
 Housing and Urban Development, and                           Housing and Urban Development, and
 Related Agencies                                             Related Agencies
 Committee on Appropriations                                  Committee on Appropriations
 United States Senate                                         United States House of Representatives
 Washington, DC 205 10                                        Washington, DC 205 15

 Dear Chairmen Murray and Olver and Ranking Members Bond and Knollenberg:

 This report presents (I) the baseline from which we will measure Amtrak's fiscal
 year (FY) 2007 operational reforms savings1and (2) our assessment of the savings
 Amtrak achieved from operational reforms in FY 2006.

 The FY 2006 Appropriations Act, funding the Department of Transportation
 (DOT), required that the DOT Office of Inspector General (OIG), report quarterly
 to your Committees on the extent to which Amtrak achieved savings from
 operational reform^.^ As of the date of this report, Congress had not taken final
 action on full-year FY 2007 appropriations for Arntrak. However, the House-



 '   Defined throughout as either net operating savings or a reduction in net operating losses.
     In accordance with the FY 2006 Appropriations Act, we issued quarterly reports in January, April, July, and October
     2006. These reports are available at www.oig.dot.gov.
                                                                                                                 2

passed FY 2007 Appropriations Act funding the DOT3 maintains this reporting
requirement and as such our office will continue to monitor and measure savings
from Amtrak’s reform initiatives.

Summary

      • We have set the FY 2007 operational reform savings baseline at
        $550 million. Amtrak proposes to achieve $61 million of this amount from
        FY 2007 operational reforms and $19 million from other savings. The
        remaining $470 million will need to come from a combination of the
        Federal appropriation for operating subsidies and further savings.

      • In the near term, Amtrak needs to put substance to its poorly defined long
        distance service reform proposal. As a prerequisite to new Federal efforts
        to expand intercity passenger rail service, Amtrak must finalize and gain
        acceptance for its route restructuring, state services, and labor agreement
        reforms.

      • To ensure continued improvements in Amtrak operating efficiency and to
        prevent deferral of needed capital expenditures, we recommend that the
        Congress continue to appropriate to Amtrak the FY 2007 operating grant
        separately from its capital and debt service grants.

      • Amtrak can use $140 million of its FY 2006 $215 million cash balance to
        partially fund its FY 2007 capital requirement. Amtrak could reserve the
        remaining $75 million to protect against unforeseen events and to facilitate
        cash flows.

      • Amtrak has implemented a new process to improve the management and
        reporting of its proposed FY 2007 operational reforms (see Enclosure 1).

      • Amtrak’s $61.3 million in savings from operational reforms in FY 2006
        contributed to its better-than-expected financial performance. Amtrak’s
        $433 million operating loss in FY 2006 was $52 million below its FY 2006
        operating grant appropriation of $485 million and $153 million below its
        own FY 2006 projection of a $586 million operating loss.




3
    H.R. 5576, Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia and
    Independent Agencies Appropriations Act for FY 2007.


CC-2007-002
                                                                                                                        3

Structure of This Report

This report will: (1) establish the baseline from which we will measure savings
from Amtrak’s FY 2007 operational reforms based on Amtrak’s proposed
FY 2007 budget, (2) describe Amtrak’s planned FY 2007 operational reforms, and
(3) give the results of our review of Amtrak’s FY 2006 operating performance at
the corporate, business line, and operational reform levels.

FY 2007 Operational Reform Savings Baseline

Our FY 2006 quarterly reports introduced the concept of the operational reform
savings baseline. This baseline incorporates the new operational reforms we will
track and puts the savings from those operational reforms into the context of
Amtrak’s overall financial performance. To create the FY 2007 baseline, we
assessed Amtrak’s financial projections and subtracted our estimate of Amtrak’s
operating expenses (net of operational reform and other savings) from our estimate
of Amtrak’s revenues. This difference is the level of savings and subsidy Amtrak
requires to make ends meet in FY 2007.

We are setting the FY 2007 operating subsidy baseline at $550 million. This
baseline reflects anticipated operational reform savings of $61 million and other
savings of $19 million. The remaining $470 million will need to come from a
combination of a Federal operating subsidy and additional Amtrak savings. We
recommend that Amtrak receive an FY 2007 operating grant of no more than
$470 million, rather than the $485 million assumed in its FY 2007 budget. This
recommendation is based on Amtrak’s better-than-expected FY 2006 end-of-year
headcount and FY 2006 expenses,4 concerns regarding the methodology Amtrak
uses in developing its budget estimates, and our view that Amtrak must continue
to implement reforms to obtain operating efficiencies.

To ensure that both needed capital expenditures are not postponed and that needed
operating efficiencies are implemented, any operating subsidy that the Congress
provides to Amtrak should continue to be provided separately from Amtrak’s
capital and debt service grants. Additionally, Amtrak can apply at least
$140 million of its better-than-expected FY 2006 cash carryover to fund its
FY 2007 capital requirements,5 thereby, directly reducing dollar-for-dollar the



4
    Amtrak overestimated its FY 2006 operating loss by $153 million or 26 percent. While some of this difference is
    due to factors beyond Amtrak’s control, such as gas prices; and a modest amount of savings from operational reform,
    the magnitude of this difference raises serious concerns that Amtrak’s budget forecasting inherently overestimates its
    Federal operating subsidy requirements.
5
    We testified in March 2006 that Amtrak needed $600 million in capital in FY 2007 to continue towards its goal of a
    state-of-good repair. Amtrak’s FY 2006 capital grant was $500 million.


CC-2007-002
                                                                                                                        4

amount Congress needs to appropriate for Amtrak’s capital grant.                                            Amtrak’s
FY 2007 debt service requirement is $295 million.6

Planned FY 2007 Operational Reforms (Strategic Reform Initiatives)7

Amtrak’s FY 2007 budget is predicated on achieving $61 million in cost savings
from operational reforms. The planned reforms and projected savings from those
reforms are presented in Enclosure 1. Amtrak estimates that approximately 70
percent of these savings in FY 2007 will come from reducing costs of food and
beverage service, improving the net operating performance of long distance trains,
and increasing revenue by improving the quality of passenger service. The
remaining savings will come from increasing sales and distribution efficiencies,
enhancing reliability and efficiency of mechanical services, reducing overhead
costs, implementing engineering efficiencies, optimizing network services, full
cost recovery of services and assets, modernizing labor agreements, and improving
oversight of management and reform.

We will monitor and measure the FY 2007 savings from the strategic reform
initiatives described below.

      • Reducing Costs and Improving Quality of Passenger Services.             This
           initiative consists of three programs. The Service Quality program entails
           placing service managers on long distance trains, implementing the
           NEC/Acela Service Improvement program, and developing new customer
           service metrics to enhance performance. The Food and Beverage Service
           program will focus on a 24 percent reduction in the food and beverage loss
           through the redesign of dining car service, rolling stock equipment
           modifications, restructuring of the Gate Gourmet commissary contract, and
           upgrading technologies used in revenue collection and point of sale
           processes. The Long Distance Product Development program will focus on
           improving net operating performance of sleeper service through crew
           optimization and adjustments to the mix of train cars and other equipment
           changes.

           Amtrak estimates total savings of $42.6 million from this initiative–
           $3.5 million from Service Quality improvements, $19.4 million from Food
           and Beverage Service, and $19.7 million from Long Distance Product
           Development.

6
    Under the current continuing resolution, Amtrak’s operating subsidy is not separated from its capital and debt service
    appropriation. We are concerned that if the year-long continuing resolution took this form, Amtrak’s focus on
    continued reform would be at risk as the Federal funds used to support Amtrak’s operations would not be limited.
7
    Amtrak calls its individual operating reforms “strategic reform initiatives.” We have adopted Amtrak’s terminology
    when discussing each reform separately.


CC-2007-002
                                                                                   5



   • Increasing Sales and Distribution Efficiencies. This initiative consists of
       five programs within Amtrak’s Marketing and Sales Department that focus
       on improving the efficiency of major sales and distribution channels.
       Amtrak expects its Station Efficiencies, E-Ticketing and Call Center
       Operations programs to yield $4.9 million in savings in FY 2007 by
       increasing the number of self-ticketing machines in stations and
       international sales, and reducing the cost of call center operations through a
       reduced wage structure. The Amtrak Board and CEO made the decision to
       not outsource call center operations for five years in exchange for labor
       concessions. The E-Commerce and Pricing programs that Amtrak plans to
       institute primarily are in the development phase and no savings are
       projected in FY 2007.

   • Enhancing Reliability and Efficiency of Mechanical Services.            This
       initiative focuses on improving the reliability and efficiency of Amtrak’s
       Mechanical Department and materials management. Key components of
       the initiative are the implementation of Reliability Centered Maintenance,
       continued implementation of the Work Management System, increased use
       of Mechanical Productivity and Quality, and enhanced use of Mechanical
       Facilities and Materials Management Operations. According to Amtrak,
       FY 2007 total savings from this initiative are expected to be $6.0 million.
       The goal for the Reliability Centered Maintenance program is to reduce the
       out-of-service time trains spend in maintenance, and increase equipment
       reliability and availability. The initial phase of Reliability Centered
       Maintenance will be tested on the maintenance of Acela equipment.

   • Improving Management Systems and Overhead Efficiencies. This is a
       cross-functional initiative to increase business efficiencies through two
       independent programs. The first program is the development of
       Management Information Systems designed to improve accuracy,
       timelines, and consistency of data and processes throughout the Amtrak
       system. This program is expected to incur an upfront capital cost of $0.8
       million in FY 2007, but no savings are expected.

       The second program targets the reduction of overhead costs, through
       improved administrative and support efficiencies, and the reduction of costs
       for handling cash and credit card transactions. This fiscal year, on-board
       credit card terminals will be installed for customers to use, thereby
       increasing sales, reducing fraud, and enhancing customer experiences.
       Amtrak expects to save $4.5 million in overhead costs in FY 2007.




CC-2007-002
                                                                                   6

   • Achieve Ongoing Efficiencies.         This initiative focuses on achieving
       ongoing efficiencies within Amtrak’s Operations Branch. The areas
       targeted for improvement are train operations, engineering, and safety.
       Improvements in these areas are expected to reduce train fuel consumption,
       increase productivity of the Engineering Department workforce, and reduce
       Federal Railroad Administration reportable illnesses and injuries. Amtrak
       expects this initiative to generate budget savings of $3.7 million in FY
       2007.

   • Optimizing Network Services and Use of Assets. The Amtrak Board and
       Amtrak management are in the process of evaluating network restructuring
       options, corridor development opportunities, and fleet and infrastructure
       investment needs. This effort is expected to net only $0.1 million in savings
       in FY 2007, because of the expected offsetting development costs. Amtrak
       estimates that this initiative will reduce its FY 2011 costs by $92 million
       compared to FY 2006.

   • Ensuring Full Cost Recovery of Services and Assets. This initiative is
       expected to improve cost recovery from states for corridor services and
       from commuters on the Northeast Corridor by increasing the financial
       contribution from these users. It will also establish multi-year grant
       agreements with the Federal Railroad Administration on the long distance
       network. Because this initiative is in the planning stage, no savings are
       expected in FY 2007.

   • Modernizing Labor Agreements. This initiative is aimed at reducing unit
       costs and increasing job flexibility by negotiating new labor agreements
       that will eliminate certain work rule and outsourcing restrictions. It also
       aims to align wages based on market demand. No savings from this
       initiative are expected in FY 2007.

Improving Oversight and Management of Reforms. Amtrak has launched a
new Program Management Office within its Planning and Analysis Department to
provide additional oversight and management of its strategic reform initiatives.
The Program Management Office is tasked with developing a standardized project
management approach in an effort to provide more reliable measurement of cost
savings, better internal oversight, and enhanced tracking and reporting capabilities.
As part of this overall initiative, Amtrak has developed a hierarchical structure of
program and projects that specifically address and support the more broadly
defined initiatives. Details of the Program Management Office framework of
strategic reform initiatives are in Enclosure 1.



CC-2007-002
                                                                                                                                                                 7

The Program Management Office is working with Amtrak’s Finance Department
to develop and maintain the appropriate links to Amtrak’s financial systems for
reliable estimating and reporting of cost savings. We expect to provide initial
results of this integration in our April report. Combining efforts of the Program
Management Office with the future development of a managerial cost accounting
system, which supports avoidable and full-cost analysis capabilities8 by business-
line and route level activity, should equip Amtrak with better management tools
for ensuring sustained reform down the road.

Amtrak’s FY 2006 Performance

This section provides the results of our review of Amtrak’s FY 2006 performance
at the corporate, business line, and strategic reform initiative levels.

Corporate Level Results. Amtrak ended FY 2006 with an operating loss of
$433 million, $52 million below the FY 2006 operating grant and $153 million
below the $586 million loss it originally projected (see Figure 1).

                                                          Figure 1. Amtrak Operating Loss
                                                                      FY 2006

                          Oct        Nov          Dec          Jan         Feb        Mar         Apr         May       Jun         Jul       Aug        Sep
                    0
                             (39)
                                           (65)
                          (51)
                                                      (109)
                                    (99)                         (163)
                                                                                                                                    $153 million in savings
                                                  (150)                      (212)
                 (200)
                                                              (219)                      (255)
$ in millions




                                                                                                     (283)

                                                                          (283)                                 (320)
                                                                                                                           (346)
                                                                                     (333)                                            (377)
                                                                                                                                                (409)
                 (400)
                                                                                                 (375)
                                                                                                             (419)                                      (433)




                 (600)
                                        $485 million
                                      Federal Subsidy
                                                                                                                        (450)
                                                                                                                                   (488)
                                                                                                                                              (531)
                                                                                                                                                            }
                                                                                                                                                         (586)
                                                                         Actual       Baseline Budget




Amtrak’s financial performance reflects savings (compared to budget estimates) of
$106 million in revenues and $79 million from reduced labor costs, offset by net
cost increases of $32 million in other expenses.

8
                Avoidable costs, such as fuel costs, are those that would not be incurred if a service was not provided. Full-cost
                methodology allocates all costs, including overhead, to Amtrak’s functions.


CC-2007-002
                                                                                   8


The $106 million in additional operating revenues include $37 million from
passenger-related revenues and $69 million from nonpassenger revenues. Sources
of nonpassenger revenues include ancillary businesses (commuter, reimbursable,
and commercial development), cost sharing revenues from transit agencies, and
miscellaneous one-time revenues. The 11 percent increase in passenger revenues
from FY 2005 was primarily the result of Amtrak’s system-wide general fare
increases and revenue management of the NEC Regional and Acela services.
These two changes resulted in a 9.3 percent average ticket price increase in
FY 2006. Additionally, although Amtrak projected a 1.8 percent decline in
ridership as a result of the price increases, ridership actually grew 1.1 percent to
24.3 million riders–3 percent more than projected. Rising fuel costs no doubt
contributed to the strength in ridership as more travelers opted to travel by train
rather than drive.

Lower personnel costs contributed significantly to holding the line on Amtrak’s
total expenses. Specifically, salaries, wages, and benefits were $79 million lower
than projected because Amtrak ended the year with 1,496 fewer employees than it
planned for in its budget. None of this reduction resulted from layoffs. Rather, it
reflects positions that were either vacant at the start of the year, planned new
positions, or positions that became vacant during the year that Amtrak did not
backfill. Amtrak’s Engineering, Mechanical, and Transportation Departments
primarily accounted for the lower number of employees.

Savings of $9 million were attributed to reduced corporate overhead expenses
(that is, legal and other professional fees, data processing service, and maintenance
of way services) and $5.8 million was attributed to lower casualty and other
claims. These savings were offset by increases above what was projected for fuel
and train power ($21.9 million), materials ($14.2 million), and all other net
operating expenses ($10.7).

Amtrak ended FY 2006 with a $215.1 million cash balance, $76.7 million more
cash than was available at the end of FY 2005, notwithstanding projections that
cash reserves would decrease.

Business Line Results. As shown in Table 1, National Train System Operations
(core)—NEC, State-supported and other Corridors, and Long Distance Services—
business lines accounted for $110.2 million of the $153.1 million in net operating
savings. Amtrak achieved additional savings of $42.9 million from its
Infrastructure Management, Ancillary (commuter, reimbursable and commercial
operations), and Unallocated Systems (overhead) business lines.




CC-2007-002
                                                                                                                       9



    Table 1. Amtrak Net Profit/(Loss), Excluding Federal Operating Subsidies*
                                 FY 2006 ($ in Millions)
                                                                                                       Actual vs.
    Business Line                                                Actual            Baseline
                                                                                                       Baseline
    National Train System Operations                           ($282.7)            ($392.7)                $110.2
    NEC                                                             239.4               191.9                   47.5
    State Supported and Other Corridors                             (82.1)              (103)                   20.9
    Long-Distance Service                                         (439.8)             (481.6)                   41.8
    Infrastructure Management                                     (54.5)              (73.4)                   18.9
    Ancillary Business                                               90.3               68.6                   21.7
    Unallocated System                                           (186.6)            (189.0)                     2.3
     Total                                                     ($433.0)            ($586.4)                $153.1
* Amtrak reports these financials on an earnings before interest, taxes, depreciation and OPEBs (other post-
  employment benefits) basis.


FY 2006 Strategic Reform Initiatives

Amtrak achieved $61.3 million in savings from operational reforms in FY 2006.
These reforms are presented by sub-baseline in Enclosure 2 and are summarized
below.

      • Food and Beverage Reform. Amtrak achieved $4.8 million in operating
           savings from several modifications to its food and beverage service. It
           saved $3.9 million through its Simplified Dining program, which was fully
           implemented in May 2006 on all trains except the Auto Train and Empire
           Builder.9 This program primarily relies on fully prepared food products
           that require only on-board heating in a convection or microwave oven and
           uses disposable dinnerware.

           Although this initiative incurred additional costs for food pre-preparation
           and packaging of meals, the significant labor savings produced a net benefit
           to the initiative. Amtrak also saved $937,500 by renegotiating the food
           supplier contract with Gate Gourmet.

           In addition, in early FY 2006, Amtrak (1) renegotiated contracts with its
           food vendors ($5.2 million savings); (2) eliminated food service on the
           Empire Corridor between New York, New York and Albany, New York,

9
    Amtrak plans to continue to offer its traditional diner class service on these two trains, maintaining this class of
    service.



CC-2007-002
                                                                                 10

       which allowed it to close the Albany Commissary in July 2005 ($2.4
       million savings); and (3) increased menu prices on its food and beverage
       service ($1.6 million savings).

   • Train Operations. Under this initiative Amtrak increased productivity,
       improved crew management, and reduced the consumption of train fuel.
       - Improved labor productivity by reducing allowable overtime in
          Amtrak’s Mechanical Division and reducing core straight time wages in
          Amtrak’s Engineering Division by 4 percent resulted in approximately
          $4 million in savings.
       - Improved crew utilization in the NEC resulted in $5.4 million in labor
          cost savings.
       - Reduced consumption of train fuel through improved locomotive
          handling and utilization. Amtrak achieved better-than-expected fuel cost
          reduction of $3.6 million, based on a budgeted fuel cost of $1.83 per
          gallon. However, these were offset by an increase in the average price
          per gallon for fuel to $2.09 per gallon which resulted in core fuel costs
          that were $12.4 million higher than budgeted.

   • Corporate Overhead. Overhead efficiencies implemented in FY 2006
       included technology efficiencies, a reduction in outside legal fees, and
       energy management, which resulted in $5.6 million in savings. Of this
       amount, $3.3 million came from technology efficiencies such as reducing
       costs of third party information technology providers; lower software,
       storage, and communications costs; and increased management controls.
       Amtrak has reported that new management software has improved its
       ability to track and collect outside legal fees, resulting in $1.4 million in
       savings. Additional savings of $944,000 came from energy management
       efficiencies achieved through enhanced oversight of utility expenditures
       and new contracts. These savings also reflect contract savings from
       commuter traction power due to higher energy costs billed back to
       commuters.

   • Long-Distance Train Service. As part of an initiative to reposition the
       Empire Builder service as a luxury service, Amtrak rolled out an enhanced
       service offering in August 2005.         The enhanced service included
       refurbished sleeper, coach, and lounge cars; food and beverage upgrades;
       and a refocus on customer service, such as providing additional on-board
       personnel. In FY 2006, actual ticket revenue on the Empire Builder was
       15.6 percent higher ($6.5 million) than in FY 2005 and 5.6 percent higher



CC-2007-002
                                                                                 11

       than budgeted ($2.6 million). However, the train still lost $41.9 million in
       FY 2006.

   • NEC Revenue Management.              In FY 2006, Amtrak began revenue
       management on NEC’s Regional and Acela Services by implementing
       variable fares based on demand for tickets. Amtrak estimated that it
       increased revenues by $23.5 million through revenue management, $8.5
       million more than was anticipated. However, it is difficult to separate out
       multiple pricing factors, and Amtrak assumes one-quarter to one-half of all
       revenue increases are due to revenue management.

Conclusion

Amtrak will be challenged in the near-term to provide substance to its long-
distance service reform proposal for FY 2007, a substantial portion of which is
currently undefined at this late date. Amtrak will also need to use FY 2007 to
finalize plans and gain stakeholder acceptance for its proposed route restructuring,
state services, and labor agreement reforms. These three reforms are a critical
component of Amtrak’s long-term financial plan. Any future Federal efforts to
expand intercity passenger rail service should be contingent on Amtrak’s ability to
achieve these reforms and other operational efficiencies.

We will report on Amtrak’s FY 2007 performance at corporate, business line, and
strategic reform initiative levels in our upcoming quarterly reports to continue to
put Amtrak’s reform efforts in context. The FY 2007 quarterly reports on
operating reform savings will provide Congress, the Department of
Transportation, and the public with a comprehensive picture of Amtrak’s efforts to
improve the efficiency of intercity passenger rail service.

Under separate cover, we are transmitting copies of this letter to the Secretary of
Transportation and the Chairman of the Board of Amtrak. If you have any
questions concerning this letter, please call me at (202) 366-6767 or David
Tornquist, Assistant Inspector General for Competition and Economic Analysis, at
(202) 366-9970.

Sincerely,



Calvin L. Scovel III
Inspector General

Enclosures

CC-2007-002
                                                                                    Enclosure 1
                                                                                     Page 1 of 3
                          Amtrak’s Operational Reforms Description


                        Table 2. Amtrak’s Proposed Operational Reforms

   Strategic Reform                                              FY 2007 Budgeted       Estimated
     Initiative and                      Objective                    Savings         5-Year Saving
        Program                                                     ($ millions)       ($ millions)*
 1. Reduce Costs & Improve Service Quality
                            Focus management attention
                            and drive accountability for train
 a. Service Quality         service performance, including,            $3.5
                            on-board service quality and
                            on-time performance.
                            Enhance service flexibility by
                            redesigning food services (for
 b. Food and                                                                               $95
                            example, fully prepared meals,
    Beverage                                                          $19.4
                            multi-purpose food service
    Services
                            cars), improving equipment,
                            and outsourcing.
 c. Long Distance
                            Improve net operating
    Product                                                           $19.7
                            performance of sleeper service.
    Development
 2. Increase Sales and Distribution Efficiencies

                            Deploy more efficient
 a. Station                 communications and                         $2.7
    Efficiencies            sales/distribution equipment
                            and processes at stations.
 b. E-ticketing             Develop enterprise systems                 $1.7
                            and processes for e-ticketing.
                            Build infrastructure to facilitate
 c. E-Commerce              customer relationships and                 $0
                                                                                           $41
                            generate incremental revenue.
                            Develop pricing mechanisms
 d. Pricing                 for responding to market                   $0
                            conditions.
                            Improve cost effectiveness of
 e. Call Center             call center operations through             $0.5
    Operations              improved tools/processes and
                            reduced labor costs.
Source: Amtrak Strategic Planning Department
* Incremental annual savings compared to FY 2006.




      CC-2007-002
                                                                                 Enclosure 1
                                                                                  Page 2 of 3

                 Table 2. Amtrak’s Proposed Operational Reforms (cont.)

                                                                       FY 2007          Estimated
   Strategic Reform
                                                                      Budgeted            5-Year
     Initiative and                            Objective
                                                                       Savings           Savings
        Program
                                                                     ($ millions)      ($ millions)
3.       Enhance Reliability and Efficiency of Mechanical Services
a. Reliability
                            Implement RCM to reduce cycle time
   Centered
                            and increase equipment reliability and      $3.1
   Maintenance
                            availability.
   (RCM)
b. Work                     Implement WMS in Mechanical
   Management               Department to enable management              $0
   System (WMS)             accountability and effectiveness.

c. Mechanical               Improve Mechanical Department
   Productivity and         productivity and quality through             $0                $75
   Quality                  improved metrics and monitoring.

                            Optimize facility utilization by
d. Facilities               developing an outsourcing/insourcing
                                                                        $2.9
   Efficiencies             strategy and consolidating and
                            redesigning facilities.
                            Improve efficiency of materials
e. Materials
                            management through new processes             $0
   Management
                            and tools.
4. Improve Management Systems and Overhead Efficiencies
                            Modernize management information
a. Management
                            systems to improve accuracy,
   Information                                                          $(0.8)
                            timeliness, and consistency of data
   System
                            and processes across the company.
                            Reduce overhead costs through better                           $36
                            allocation, improved administrative
b. Overhead Costs           and support function efficiency, and        $4.5
                            reduced cash handling and
                            transaction costs.
Source: Amtrak Strategic Planning Department




     CC-2007-002
                                                                                Enclosure 1
                                                                                 Page 3 of 3

                 Table 2. Amtrak’s Proposed Operational Reforms (cont.)

   Strategic Reform                                                   FY 2007          Estimated
     Initiative and                            Objective             Budgeted            5-Year
        Program                                                       Savings           Savings
                                                                    ($ millions)      ($ millions)
5. Achieve Ongoing Efficiencies
                            Improve cost-effectiveness of train
                            operations through better labor and
a. Train Operations                                                     $0
                            crew utilization and resource
                            allocation.
                            Increase productivity of engineering
                            workforce through implementation of                           $8
b. Engineering
                            engineering asset management and           $3.7
   Efficiencies
                            improved work management
                            processes.
                            Reduce FRA reportable illnesses/
c. Safety                                                               $0
                            injuries rate.
6. Optimize Network Services and Use of Assets

                            Improve alignment of NEC, corridor,
d. Routes and
                            and long distance routes and services      $0.6
   Services
                            with market demand.

                            Improve fleet and infrastructure                              $92
                            utilization through new service
e. Asset Utilization        planning tools/processes and a             $(0.5)
                            collaborative infrastructure planning
                            process.
7. Ensure Full Cost Recovery of Services and Assets
                     Improve cost recovery from states for
a. State Corridors                                                      $0
                     corridor services.
                            Improve cost recovery from users of
b. NEC Access                                                           $0                TBD
                            NEC.
c. Long Distance            Improve cost recovery for long
                                                                        $0
   Network                  distance network.

8. Modernize Labor Agreements

                            Negotiate new labor agreements that
a. Labor Contracts                                                      $0                TBD
                            increase workforce flexibility.
Source: Amtrak Strategic Planning Department




     CC-2007-002
                                                                 Enclosure 2

          Amtrak’s FY 2006 Savings from Operational Reforms

Table 3 presents the FY 2006 estimated annual savings and actual savings, broken
down by a framework of sub-baselines, from all operational reforms in FY 2006.

              Table 3. Summary of Amtrak Savings by Sub-Baseline
                           FY 2006 ($ in thousands)
                                         Estimated     Actual
       Amtrak Net Operating Savings       Annual        YTD       Variance
                                          Benefit      Benefit       +/-
    Corporate Initiatives                 $19,118     $27,215      $8,097
    Food and Beverage                        7,687     14,018       6,331
      On-Board Services Labor                7,919      9,325       1,406
      Commissary Labor and Support             266        287          21
      Food and Beverage Stock Supplies
      (non-labor)                          (1,465)      2,799        4,264
      Food and Beverage Revenue                967      1,607          640
    Train Operations                         6,284      7,556        1,272
      Labor Efficiencies                     5,228      3,992      (1,236)
      Fuel Conservation                      1,056      3,564        2,508
    Corporate Overhead                       5,147      5,641          494
      Law Department Efficiencies            1,400      1,400            0
      Technology Efficiencies                3,297      3,297            0
      Energy Management                        450        944          494
    Business Line Initiatives              18,613      34,111      15,498
    Long Distance Train Service              2,600      5,223        2,623
      Enhanced Service Offerings             2,600      5,223        2,623
    NEC Operations                         16,013      28,888      12,875
      Fare and Revenue Management          15,000      23,475        8,475
      Labor Efficiencies                     1,013      5,413        4,400
     Total                                $37,731     $61,326     $23,595




CC-2007-002
